Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


   WASHINGTON STATE CLAIMED
A SMALL AMOUNT OF UNALLOWABLE
  MEDICAID REIMBURSEMENT FOR
   HOME HEALTH SERVICES THAT
     EXCEEDED THE MAXIMUM
     ALLOWABLE NUMBER OF
      REIMBURSABLE VISITS

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Lori A. Ahlstrand
                                               Regional Inspector General

                                                       August 2013
                                                      A-09-12-02056
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 From July 1, 2010, through March 31, 2012, Washington State claimed $41,000 in
 unallowable Federal Medicaid reimbursement for home health services that exceeded
 the maximum allowable number of reimbursable visits.

WHY WE DID THIS REVIEW

Home health agencies provide home health services, such as nursing, physical therapy, and
speech services, to Medicaid beneficiaries. To prevent placement in a more restrictive setting,
such as a hospital, these services are provided in the beneficiary’s residence, on an intermittent
or part-time basis, for the treatment of an illness, injury, or disability. Previous Office of
Inspector General reviews found that States improperly claimed Federal Medicaid
reimbursement for home health services that were not adequately documented. In Washington
State, Medicaid covers up to a certain number of home health visits per day for a beneficiary
(reimbursable visits), depending on the specific type of service provided.

The objective of this review was to determine whether the Washington State Health Care
Authority (State agency) claimed Federal Medicaid reimbursement for home health services that
exceeded the maximum allowable number of reimbursable visits.

BACKGROUND

In Washington State, the State agency administers the Medicaid program and pays for the
following home health services: skilled nursing, specialized therapy (physical, occupational, and
speech/audiology therapy), and home health aide services. State regulations limit reimbursement
for home health services to two skilled nursing visits per day, one specialized therapy visit of
each type per day, and one home health aide visit per day.

From July 1, 2010, through March 31, 2012 (audit period), the State agency claimed
approximately $6.7 million ($3.9 million Federal share) for home health service expenditures,
which consisted of 77,081 service lines. (A service line represented a line of service on a claim
submitted by a home health agency.) We analyzed all the service lines to identify whether
payments were made for services that exceeded the maximum allowable number of reimbursable
visits.

WHAT WE FOUND

The State agency claimed $41,496 in unallowable Federal Medicaid reimbursement for home
health services that exceeded the maximum allowable number of reimbursable visits for
specialized therapy ($35,336), skilled nursing ($5,463), and home health aide services ($697).
The overpayments were the difference between the paid and maximum reimbursable amounts for
the services.

The State agency’s Medicaid Management Information System (MMIS) did not include edits to
limit the number of reimbursable visits for skilled nursing and home health aide services for part


Washington State’s Medicaid Home Health Service Expenditures (A-09-12-02056)                         i
of the audit period and specialized therapy services for the entire audit period. During the audit
period, the State agency implemented edits for skilled nursing and home health aide services.
We did not find overpayments for these types of services after the edits were implemented.
After the audit period and near the end of our fieldwork, State agency personnel indicated that
they had developed and implemented edits for specialized therapy services. However, we did
not verify the effectiveness of these edits.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $41,496 to the Federal Government,

    •   verify that the MMIS edits to limit the number of reimbursable visits for specialized
        therapy services are working effectively, and

    •   review reimbursements for specialized therapy services claimed after the audit period and
        before implementation of the edits and refund any overpayment identified.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our finding and described
actions that it had taken to address our recommendations.




Washington State’s Medicaid Home Health Service Expenditures (A-09-12-02056)                         ii
                                                        TABLE OF CONTENTS


INTRODUCTION ........................................................................................................................1

           Why We Did This Review ................................................................................................1

           Objective ...........................................................................................................................1

           Background .......................................................................................................................1
                 Medicaid Program: Administration and Reimbursement ....................................1
                 Medicaid Coverage of Home Health Services ......................................................1
                 Washington’s Medicaid Home Health Program ...................................................1

           How We Conducted This Review.....................................................................................2

FINDING ......................................................................................................................................2

           Federal and State Requirements........................................................................................2

           State Agency Claimed Unallowable Home Health Services That Exceeded
             the Maximum Allowable Number of Reimbursable Visits ...........................................3

RECOMMENDATIONS ..............................................................................................................3

STATE AGENCY COMMENTS .................................................................................................4

APPENDIXES

           A: Related Office of Inspector General Reports ..............................................................5

           B: Audit Scope and Methodology....................................................................................6

           C: State Agency Comments .............................................................................................8




Washington State’s Medicaid Home Health Service Expenditures (A-09-12-02056)                                                                        iii
                                                 INTRODUCTION

WHY WE DID THIS REVIEW

Home health agencies provide home health services, such as nursing, physical therapy, and
speech services, to Medicaid beneficiaries. To prevent placement in a more restrictive setting,
such as a hospital, these services are provided in the beneficiary’s residence, on an intermittent
or part-time basis, for the treatment of an illness, injury, or disability. Previous Office of
Inspector General (OIG) reviews found that States improperly claimed Federal Medicaid
reimbursement for home health services that were not adequately documented. 1 In Washington
State, Medicaid covers up to a certain number of home health visits per day for a beneficiary
(reimbursable visits), depending on the specific type of service provided.

OBJECTIVE

Our objective was to determine whether the Washington State Health Care Authority (State
agency) claimed Federal Medicaid reimbursement for home health services that exceeded the
maximum allowable number of reimbursable visits.

BACKGROUND

Medicaid Program: Administration and Reimbursement

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with applicable Federal requirements. The
Federal Government pays its share of a State’s medical assistance expenditures under Medicaid
according to the Federal medical assistance percentage (FMAP), which varies depending on the
State’s relative per capita income (§ 1905(b) of the Social Security Act (the Act)).

Medicaid Coverage of Home Health Services

The Act authorizes reimbursement to States for home health services (§ 1905(a)(7)). To be
reimbursable under Medicaid, home health services must be provided to a beneficiary at his
place of residence and on the physician’s orders as part of a written plan of care that the
physician reviews every 60 days (42 CFR § 440.70(a)).

Washington’s Medicaid Home Health Program

In Washington State, the State agency administers the Medicaid program. The State agency’s
home health program is designed to provide equally effective, less restrictive quality care to the
beneficiary in the beneficiary’s residence when the beneficiary is not able to access medically
1
    See Appendix A for a list of related OIG reports on States’ claims for home health services.


Washington State’s Medicaid Home Health Service Expenditures (A-09-12-02056)                         1
necessary services in the community or in lieu of hospitalization. The State agency pays for the
following home health services: skilled nursing, specialized therapy (physical, occupational, and
speech/audiology therapy), and home health aide services.

The State agency uses the Medicaid Management Information System (MMIS), a computerized
payment and information reporting system, to process Medicaid claims for payment. The
expenditures related to the claims are reported on the Form CMS-64, Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program, for Federal reimbursement.
During our audit period, Washington State’s FMAP ranged from 50 percent to 62.94 percent.

HOW WE CONDUCTED THIS REVIEW

From July 1, 2010, through March 31, 2012 (audit period), the State agency claimed
approximately $6.7 million ($3.9 million Federal share) for home health service expenditures,
which consisted of 77,081 service lines. (A service line represented a line of service on a claim
submitted by a home health agency.) We analyzed all the service lines to identify whether
payments were made for services that exceeded the maximum allowable number of reimbursable
visits by (1) identifying service lines with paid units that exceeded the maximum allowable
number of paid units for each type of service, (2) verifying whether any of the service lines were
adjusted, and (3) calculating the paid amount that exceeded the maximum reimbursable amount
for each service line.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology.

                                               FINDING

The State agency claimed $41,496 in unallowable Federal Medicaid reimbursement for home
health services that exceeded the maximum allowable number of reimbursable visits for
specialized therapy, skilled nursing, and home health aide services. The State agency’s MMIS
did not include edits to limit the number of reimbursable visits for skilled nursing and home
health aide services for part of the audit period and specialized therapy services for the entire
audit period.

FEDERAL AND STATE REQUIREMENTS

A Federal regulation states that, to be allowable under Federal awards, costs must be authorized
or not prohibited under State regulations (2 CFR, part 225, Appendix A, § C.1.c.). The State
plan limits nursing services to two visits per day and home health aide services to one visit per
day (Attachments 3.1-A, page 22, and 3.1-B, page 23). State regulations limit reimbursement for
home health services to two skilled nursing visits per day (Washington Administrative Code



Washington State’s Medicaid Home Health Service Expenditures (A-09-12-02056)                        2
(WAC) § 182-551-2100(3)), one home health aide visit per day (WAC § 182-551-2130(1)(k)),
and one visit of each type of specialized therapy service per day (WAC § 182-551-2130(1)(k)).

STATE AGENCY CLAIMED UNALLOWABLE HOME HEALTH SERVICES THAT
EXCEEDED THE MAXIMUM ALLOWABLE NUMBER OF REIMBURSABLE VISITS

The State agency claimed $41,496 in unallowable Federal Medicaid reimbursement for home
health services that exceeded the maximum allowable number of reimbursable visits.
Specifically, the State agency claimed:

    •   $35,336 for specialized therapy services that exceeded one visit of each type per day,

    •   $5,463 for skilled nursing services that exceeded two visits per day, and

    •   $697 for home health aide services that exceeded one visit per day.

We questioned the difference between the paid amount and maximum reimbursable amount for
each service line.

The State agency’s MMIS did not include edits to limit the number of reimbursable visits for
skilled nursing and home health aide services for part of the audit period and specialized therapy
services for the entire audit period. During the audit period, the State agency implemented edits
for skilled nursing and home health aide services. 2 We did not find overpayments for these types
of services after the edits were implemented. After the audit period and near the end of our
fieldwork, State agency personnel indicated that they had developed and implemented edits for
specialized therapy services. However, we did not verify the effectiveness of these edits.

                                        RECOMMENDATIONS

We recommend that the State agency:

    •   refund $41,496 to the Federal Government,

    •   verify that the MMIS edits to limit the number of reimbursable visits for specialized
        therapy services are working effectively, and

    •   review reimbursements for specialized therapy services claimed after the audit period and
        before implementation of the edits and refund any overpayment identified.




2
 During our fieldwork, the State agency refunded to the Federal Government $4,717 of the overpayment for skilled
nursing services.


Washington State’s Medicaid Home Health Service Expenditures (A-09-12-02056)                                   3
                                  STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our finding and described
actions that it had taken to address our recommendations. The State agency’s comments are
included in their entirety as Appendix C.




Washington State’s Medicaid Home Health Service Expenditures (A-09-12-02056)                      4
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS


                                                                             Report         Date
                       Report Title                                          Number        Issued
New York Improperly Claimed Medicaid Reimbursement for                    A-02-10-01022   11/29/12
Some Home Health Services Claims Submitted by Certified
Home Health Agencies in New York City

Review of Selected Medicaid Home Health Services Claims                   A-02-10-01002   04/20/12
Made by Jewish Home and Hospital Lifecare Community
Services – Manhattan LTHHCP

Review of Colorado Medicaid Payments for Home Health                      A-07-10-01087   12/01/10
Agency Claims Paid to Personal Assistance Services of
Colorado

Review of Colorado Medicaid Payments for Home Health                      A-07-10-01083   11/09/10
Agency Claims

Review of Nebraska Medicaid Payments for Home Health                      A-07-09-01077   10/07/10
Agency Claims




Washington State’s Medicaid Home Health Service Expenditures (A-09-12-02056)                         5
                      APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

From July 1, 2010, through March 31, 2012, the State agency claimed $6,746,887 ($3,860,830
Federal share) for home health service expenditures, which consisted of 77,081 service lines.
We analyzed all the service lines to identify whether payments were made for services that
exceeded the maximum allowable number of reimbursable visits.

We did not review the overall internal control structure of the State agency or the Medicaid
program. Rather, we reviewed only those internal controls related to our objective.

We conducted our audit from June 2012 to April 2013 and performed our fieldwork at the State
agency’s office in Olympia, Washington.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed Federal and State laws, regulations, and guidance and the State plan;

    •   held discussions with CMS officials to gain an understanding of CMS guidance furnished
        to State agency officials concerning home health services;

    •   held discussions with State agency officials to gain an understanding of State policies and
        procedures for claiming Federal reimbursement for home health services;

    •   reconciled home health service expenditures claimed by the State agency on the Forms
        CMS-64 with supporting schedules and MMIS claim data from July 1, 2010, through
        March 31, 2012;

    •   analyzed the home health claim data to determine whether payments were made for
        services that exceeded the maximum allowable number of reimbursable visits by
        (1) identifying service lines with paid units that exceeded the maximum allowable
        number of paid units for skilled nursing, specialized therapy, 3 and home health aide
        services, (2) verifying whether any of the service lines were adjusted, and (3) calculating
        the paid amount that exceeded the maximum reimbursable amount for each service line;
        and

    •   reviewed the claim data to determine whether the State agency claimed reimbursement
        for skilled nursing and home health aide services that exceeded the maximum allowable
        number of reimbursable visits after the State agency had implemented MMIS edits for
        these types of services.

3
 We separately analyzed physical, occupational, and speech therapy services to determine whether more than one
unit of each type of service was paid per day.


Washington State’s Medicaid Home Health Service Expenditures (A-09-12-02056)                                     6
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Washington State’s Medicaid Home Health Service Expenditures (A-09-12-02056)                   7
                               APPENDIX C: STATE AGENCY COMMENTS 





                                                  STATE OF WASHINGTON
                                            HEALTH CARE AUTHORITY
                              626 8th Avenue, SE • P.O. Box 45502 • Olympia, Wasltington 98504-5502

              July 11 ,2013



              Lori A. Ahlstrand, Regional Inspector General for Audit Services
              Office ofAudit Services, Region IX
              90 - 7th Street, Suite 3-650
              San Francisco, CA 941 03


              Dear Ms. Ahlstrand:

              SUBJECT:        Report Number: A-09-12-02056

              This Jetter is in response to your communication dated Jun 6, 2013 regard ing the U.S. Department of
              Health and Human Services, Office ofInspector General (OIG), draft report entitled Washington
              State Claimed a Small Amount of Unallowable Medicaid Reimbursement/or Home Health Services
              that Exceeded the Maximum A llowable Number ofReimbursable Visits.

             T he Health Care Authority's (HCA) Medicaid program thanks you for your feedback and as a result,
             has instituted changes in the Home Health program.

             The agency has imp lemented edits to support the applicable policy regarding the limit for the number
             of reimbursable visits for specialized therapy services for the Home Health program. A sample of
             c laims was pulled which verified edits were working to support accurate claim adjudication.

             HCA reviewed the Home Health Skilled Nursing, Home Health Aide Services, and Home Health
             Special ized Therapy data and is in agreement with the OIG frndings. The agency is currently
             recovering this overpayment throu gh claims adjustments and normal recovery processes. The federal
             share will be retumed through the normal business processes and reported on the Centers for
             Medicare and Medicaid Services 64 appropriately pursuant to 42 CFR 433.

             Should you have any questions, please do not hesitate to call Thuy Hua-Ly, Chief Financial Officer,
             by telephone at 360-725-1855 or via email at Thu y.Hua-Ly@hca.wa.gov.

             Si ncerely,


              ~2)~
             Dorothy F. Teeter, MHA
             Director

             cc: 	   MaryAnne Lindeblad, Medicaid Director, HCA
                     Thuy Hua-Ly, Chief Financial Officer, FS, HCA
                     Gail Kreiger, Section Manager, HCS, HCA
                     Annette Rumsey, Risk Manager/Internal Auditor, lFS , HCA




Washing to n State 's Medicaid Home Health Service Expenditures (A-09-12-02056)                                      8
